Report No. D-2009-091          July 31, 2009






    Information Operations Contracts in Iraq


Additional Information and Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
FAR                           Federal Acquisition Regulation
IDIQ                          Indefinite-Delivery, Indefinite-Quantity
IG                            Inspector General
IO                            Information Operations
JCC-I/A                       Joint Contracting Command-Iraq/Afghanistan
MNC-I                         Multi-National Corps-Iraq
MNF-I                         Multi-National Force-Iraq
PA                            Public Affairs
PSYOP                         Psychological Operations
SOW                           Statement of Work
SSEB                          Source Selection Evaluation Board
                                 INSPECTOR GENERAL
                                 DEPARTMENT OF DEFENSE
                                   400 ARMY NAVY DRIVE
                              ARLINGTON, VIRGINIA 22202-4704



                                                                            July 31,2009



MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR INTELLIGENCE
                        COMMANDER,U.S. CENTRAL COMMAND
                        DIRECTOR,JOINT STAFF


SUBJECT: Information Operations Contracts in Iraq (Report No. D-2009-091)



We are providing this report for your information and use. We considered management
comments on a draft of the report in preparing the final report.


Comments on the draft of this report conformed to the requirements of DoD
Directive 7650.3 and left no unresolved issues. Therefore,we do not require any
additional comments.


We appreciate the courtesies extended to the staff. Please direct questions to Paul J.
Granetto,Principal Assistant Inspector General for Auditing, at (703) 604-8905 (DSN
664-8905).




                                            Mary L.
                                            Deputy Inspector General for Auditing
Report No. D-2009-091 (Project No. D2009-D000JA-0108.000)                       July 31, 2009


               Results in Brief: Information Operations
               Contracts in Iraq

                                                        services contracts. Specifically, the Joint
What We Did                                             Contracting Command-Iraq/Afghanistan did not
This audit was requested by the Commander,              prepare a Quality Assurance Surveillance Plan
U.S. Central Command. We also performed this            for these contracts, and our review of contract
audit pursuant to Public Law 110-181, “The              documentation did not find evidence that a
National Defense Authorization Act for Fiscal           Contracting Officer’s Representative was
Year 2008,” section 842, “Investigation of              appointed.
Waste, Fraud, and Abuse in Wartime Contracts
and Contracting Processes in Iraq and                   What We Recommend
Afghanistan.”                                           The Commander, Multi-National Force-Iraq
                                                        should award task orders under these contracts
Our objective was to determine whether a series         to meet the contract minimum values, then
of contracts for Information Operations awarded         allow these contracts to expire, and determine
by Multi-National Force-Iraq (W91GDW-08-D-              how ongoing requirements for Psychological
4013, W91GDW-08-D-4014, W91GDW-08-                      Operations will be procured in the future.
D-4015, and W91GDW-08-D-4016) met
Federal Acquisition Regulation requirements.            To improve oversight of these contracts, the
We also determined whether this procurement             Commander, Joint Contracting Command-
satisfied user needs.                                   Iraq/Afghanistan should appoint a Contracting
                                                        Officer’s Representative and prepare a Quality
What We Found                                           Assurance Surveillance Plan. Additionally, the
The Joint Contracting Command-Iraq/                     Commander, Joint Contracting Command-
Afghanistan awarded indefinite-delivery,                Iraq/Afghanistan should implement procedures
indefinite-quantity contracts to four contractors       to ensure a review is conducted of proposed
in accordance with the Federal Acquisition              psychological operations procurements by the
Regulation. However, the Joint Contracting              Multi-National Force-Iraq Information
Command-Iraq/Afghanistan combined                       Operations Division.
psychological operations and public affairs
requirements in one contract. Although we did           Management Comments and
not obtain any evidence that psychological              Our Response
operations were intended for a U.S. audience,
                                                        The comments from the Multi-National Force-
the contract language did not clearly
                                                        Iraq Information Operations Chief and the
differentiate between psychological operations
                                                        Principal Assistant Responsible for Contracting-
and public affairs, as required by doctrine,
                                                        Iraq were responsive, and no additional
creating the appearance that psychological
                                                        comments are required. Although not required
operations were associated with a U.S.
                                                        to respond, we also received comments from the
audience. Overall, the contracting process
                                                        Office of the Under Secretary of Defense for
resulted in a contract vehicle that was not
                                                        Intelligence and the U.S. Central Command.
optimal and may not meet initial psychological
                                                        Please see the recommendations table on the
operations requirements or user needs. In
                                                        back of this page.
addition, we determined that an internal control
weakness exists in the oversight of the media

                                                    i
Report No. D-2009-091 (Project No. D2009-D000JA-0108.000)                July 31, 2009

Recommendations Table
Management                     Recommendations              No Additional Comments
                               Requiring Comment            Required
Commander, Multi-National                                   1.a., 1.b.
Force-Iraq

Commander, Joint Contracting                                2.a., 2.b.
Command-Iraq/Afghanistan




                                          ii
Table of Contents

Results in Brief		                                                  i


Introduction		                                                      1


       Objective                                                    1

       Background                                                   1

       Review of Internal Controls                                  3


Finding. Media Services Contracts in Iraq		                         4


       Management Comments on the Report and Our Response           7

       Recommendations, Managements Comments, and Our Response      8


Appendices

       A. 	Scope and Methodology 	                                 11 

              Prior Coverage                                       12 

       B. Media Services Contracts in Iraq 	                       13 


Management Comments

       U.S. Central Command                                        17 

       Multi-National Force-Iraq                                   20 

       Multi-National Corps-Iraq                                   21 

       Joint Contracting Command-Iraq/Afghanistan                  24 

       Office of the Under Secretary of Defense for Intelligence   25 

Introduction
Objective
Our objective was to determine whether a series of contracts for Information
Operations (IO) awarded by Multi-National Force-Iraq (W91GDW-08-D-4013,
W91GDW-08-D-4014, W91GDW-08-D-4015, and W91GDW-08-D-4016) met Federal
Acquisition Regulation (FAR) requirements. In addition, we also determined whether
user needs were met by this procurement. See Appendix A for a discussion of the scope
and methodology and prior coverage related to the objectives.

Background
We performed this audit in response to a request from the Commander, U.S. Central
Command to evaluate the IO requirements in support of Operation Iraqi Freedom. The
request asked us to identify and evaluate the process to establish and execute IO
requirements and to identify the resources applied to meet those requirements. The
request also asked us to evaluate the contracting process and the use of private
contractors in support of IO.

This is the first in a series of reports that will address the request from the Commander,
U.S. Central Command. It discusses whether the indefinite-delivery, indefinite-
quantity (IDIQ) IO contracts awarded by the Multi-National Force-Iraq (MNF-I)
complied with the FAR. Subsequent reports will discuss the IO requirements process,
and funding and personnel resources applied to meet IO requirements in Iraq.

We also performed this audit pursuant to Public Law 110-181, “The National Defense
Authorization Act for Fiscal Year 2008,” section 842, “Investigation of Waste, Fraud,
and Abuse in Wartime Contracts and Contracting Processes in Iraq and Afghanistan.”
Section 842 requires thorough investigation and auditing to identify potential waste,
fraud, and abuse in the performance of DoD contracts, subcontracts, and task and
delivery orders for the logistical support of coalition forces in Iraq and Afghanistan.
Further, section 842 requires thorough investigation and auditing of Federal agency
contracts, subcontracts, and task and delivery orders for the performance of security and
reconstruction functions in Iraq and Afghanistan.

IO
Joint Publication 3-13, “Information Operations,” February 13, 2006, states that IO are:

               … the integrated employment of electronic warfare, computer network
               operations, psychological operations, military deception, and operations
               security, in concert with supporting and related capabilities, to
               influence, disrupt, corrupt, or usurp adversarial human and automated
               decision making while protecting our own.




                                                  1

Psychological Operations
Joint Publication 3-53, “Doctrine for Joint Psychological Operations,”
September 5, 2003, states that psychological operations (PSYOP) “are planned operations
to convey selected information and indicators to foreign audiences to influence the
emotions, motives, objective reasoning, and ultimately the behavior of foreign
governments, organizations, groups, and individuals.” PSYOP are an integral part of
military operations and are an inherent responsibility of all military commanders.

Public Affairs
Joint Publication 3-61, “Public Affairs,” May 9, 2005, defines public affairs (PA) as:

               Those public information, command information, and community
               relations activities directed toward both the external and internal
               publics with interest in the Department of Defense . . . The mission of
               joint public affairs is to support the JFC [Joint Force Commander] by
               communicating truthful and factual unclassified information about
               Department of Defense (DOD) activities to US, allied, national,
               international, and internal audiences.

Joint Publication 3-61 states that:

               Although both PA and IO require planning, message development, and
               media analysis, the efforts differ with respect to audience, scope, and
               intent, and must remain separate . . . PA capabilities are related to IO,
               but PA is not an IO discipline or PSYOP tool . . . PA must be aware of
               the practice of PSYOP, but should have no role in planning or
               executing these operations.

Federal Acquisition Regulation
The FAR is the primary regulation used by all Federal Executive agencies in their
acquisition of supplies and services. For the purpose of this report, we relied on FAR
sections related to pre-award, source selection, and contract award, including FAR Part 4,
“Administrative Matters”; Part 12, “Acquisition of Commercial Items”; Part 15,
“Contracting by Negotiation”; and Subpart 16.5, “Indefinite-Delivery Contracts.”

United States Central Command
U.S. Central Command was established on January 1, 1983, and is located at MacDill Air
Force Base in Tampa, Florida. The command has an area of responsibility that consists
of 20 countries in the Middle East and Southwest Asia, with a mission to promote
development and cooperation among nations, respond to crises, and deter or defeat state
and transnational aggression in order to establish regional security and stability.

MNF-I, formed on May 15, 2004, conducts operations to defeat remaining noncompliant
forces and neutralize destabilizing influences in Iraq in order to create a secure
environment.




                                                  2

Joint Contracting Command-Iraq/Afghanistan (JCC-I/A), established on July 2, 2005, is
responsible for providing responsive operational contracting support to the Chiefs of
Mission, MNF-I, and Combined Forces Command-Afghanistan in acquiring vital
supplies, services, and construction in support of Coalition Forces and the relief and
reconstruction of Iraq and Afghanistan. The Commander of JCC-I/A serves as the Head
of Contracting Authority throughout the theater.

Multi-National Corps-Iraq (MNC-I), a subordinate command of MNF-I, is located at
Camp Victory, Baghdad, Iraq. MNC-I is responsible for command and control of
operations throughout Iraq. Four commands report to MNC-I including: Multi-National
Division-Baghdad, Multi-National Division-North, Multi-National Force-West, and
Multi-National Division-South.

Review of Internal Controls
We determined that an internal control weakness in the oversight of the media services
contracts awarded by JCC-I/A existed as defined by DoD Instruction 5010.40,
“Managers’ Internal Control (MIC) Program Procedures,” January 4, 2006. A Quality
Assurance Surveillance Plan had not been prepared for the media services contracts, nor
had a Contracting Officer’s Representative been appointed. In addition, the contracts
contained language that did not clearly distinguish between PA and PSYOP services,
which led to the unintended consequence of including “U.S. audiences” as a strategic
audience for contracts that contain PSYOP requirements. Implementing
Recommendations 2.a. and 2.b. will improve the oversight of future PSYOP
procurements. We will provide a copy of this report to the senior official responsible for
internal controls at U.S. Central Command.




                                            3

Finding. Media Services Contracts in Iraq
JCC-I/A awarded IDIQ contracts W91GDW-08-D-4013, W91GDW-08-D-4014,
W91GDW-08-D-4015, and W91GDW-08-D-4016 for media services in compliance with
FAR pre-award, source selection, and contract award requirements. The procurement
was originally intended to satisfy PSYOP requirements. However, JCC-I/A incorporated
PA services into the solicitation as a sample task order. To alleviate concerns about using
a PSYOP contract for PA, JCC-I/A later broadened the focus of the solicitation to media
services. Although we did not obtain any evidence that PSYOP were intended for a U.S.
audience, the contract language did not clearly differentiate between PSYOP and PA,
creating the appearance that PSYOP were associated with a U.S. audience. Overall, the
contracting process resulted in a contract vehicle that was not optimal and may not meet
initial PSYOP requirements or user needs.

Media Services Contracts
On September 23, 2008, JCC-I/A awarded IDIQ contracts to Leonie Industries LLC; SOS
International, Ltd.; Lincoln Group; and MPRI/L-3 Services, Inc. to provide a full range of
media services to MNF-I. The contracts had a period of performance of 12 months from
the date of award, with two 12-month option periods. The contracts had a maximum
value of $100 million per year. The media services contracts have been on hold since
October 2008, and the former contracting officer stated that there were no task orders
awarded for the contracts.

Federal Acquisition Regulation
We reviewed contract documentation provided by U.S. Central Command pertaining to
pre-award, source selection, and contract award, and concluded that the contracting
process complied with the FAR. For additional information on the history of this
procurement, see Appendix B.

Requirement
The procurement was originally intended to satisfy PSYOP requirements. The Acting
Commander, JCC-I/A approved a memorandum titled “Acquisition Strategy Approval,”
July 25, 2008, that set out the acquisition strategy for this procurement (solicitation
number W91GDW-08-R-0006). The memorandum stated that PSYOP and IO are
recurring requirements that were previously satisfied through multiple blanket purchase
agreements and multiple-award IDIQ contracts, most of which expire in 2009. The
strategy for this procurement was to use a combined contract vehicle for PSYOP and IO
that would operate under one oversight team to decrease contract administration efforts.

Incorporation of Public Affairs
Although the procurement was originally intended to satisfy PSYOP requirements,
JCC-I/A incorporated PA services into the solicitation as a sample task order.




                                            4

Solicitation and Seed Project
The solicitation, originally posted on July 22, 2008, for PSYOP and IO services for
MNF-I, contained a seed project designed to be a sample task order that the Government
would use to conduct a detailed price evaluation and comparison of proposals. An
MNF-I official confirmed that the seed project was exclusively for PA. Specifically, the
seed project was based on a statement of work (SOW) for a strategic communications
management services contract that MNF-I awarded to the Lincoln Group in 2006. The
strategic communications management services contract SOW was provided to JCC-I/A
as the seed project for the PSYOP/IO procurement, bringing PSYOP and PA together
under one vehicle. A second version of the solicitation, posted on July 28, 2008, added
additional PA tasks to the seed project.

In August 2008, PA officials from U.S. Central Command and MNF-I expressed
reservations about the use of a PSYOP contract to conduct PA. To alleviate these
concerns, the final version of the solicitation, posted on August 21, 2008, broadened the
focus of the procurement. Specifically, the title of the solicitation was changed from
“Psychological Operations/Information Operations Services” to “media services,” and the
language of the SOW was changed to remove nearly all references to PSYOP.

Unintended Consequences
The contracts awarded on September 23, 2008, did not differentiate between the intended
audiences for PSYOP and PA. Joint doctrine for PA (Joint Publication 3-61) states that
PA can be disseminated to both U.S. and foreign audiences; however, joint doctrine for
PSYOP (Joint Publication 3-53) states that PSYOP can only be disseminated to a foreign
audience.

The SOW for the multiple-award contracts stated that:

              … it is essential to the success of the new Iraqi Government and the
              Coalition mission that both communicate effectively with our strategic
              audiences (i.e., Iraqi, pan-Arabic, international, and U.S. audiences) to
              gain widespread acceptance of their core themes and messages.

Further, the SOW noted that: “The establishment of multiple-award Indefinite
Delivery/Indefinite Quantity (ID/IQ) contracts will ensure effective communication of
GOI [Government of Iraq] and Coalition themes and messages.” The SOW also listed
PSYOP doctrine, guidance publications, and Fragmentary Orders as publications
governing the media services objectives.

Although the SOW later stated that media products were intended for dissemination to
Iraqis; nevertheless, the inclusion of the U.S. as a strategic audience and PSYOP
publications as guidance may create the appearance that PSYOP were associated with a
U.S. audience. During the audit we did not obtain any evidence that PSYOP were
intended for a U.S. audience; however, the contract language did not adequately
differentiate the intended audiences for PA and PSYOP.




                                                 5

Future Actions
Regarding the future of the media services contracts, IO personnel from MNF-I and
MNC-I stated that they plan to collect a group of small PSYOP projects and award them
as task orders to meet the $250,000 minimum values for each contractor. Therefore, the
U.S. Government will at least obtain something in return for the $1 million obligated. An
MNF-I official stated that it’s likely that once the minimum values for each contractor are
met, no additional task orders will be issued, the option years will not be executed, and
the contracts will be allowed to expire. Subsequently, MNF-I should determine how
ongoing requirements for PSYOP in Iraq will be procured in the future.

A JCC-I/A review of the contract files, conducted in November 2008, indicated that a
Quality Assurance Surveillance Plan had not been prepared. In addition, during our
review of contract documentation, we did not find a Contracting Officer’s Representative
appointment letter. These are internal control weaknesses in the oversight of the
contracts. If task orders are awarded under these contracts, a Contracting Officer’s
Representative should to be appointed and a Quality Assurance Surveillance Plan should
be developed.

User Needs
The contracts, as currently structured, may not satisfy the needs of any of the parties
involved in this procurement. MNF-I had an ongoing need for contract support for
PSYOP, which was previously satisfied by a series of small contracts. There was no
consensus among IO personnel in Iraq as to whether these contracts would have
adequately met PSYOP requirements. While IO and PSYOP personnel were involved in
the procurement process, senior IO personnel in Iraq noted that they had reservations
about the contract throughout the process, but did not raise their concerns to anyone in
their chain of command or at JCC-I/A. MNF-I and MNC-I officials stated that IO
personnel need to be more forceful in the future when they have objections with the
contracting process or when their requirements for PSYOP are not being adequately
addressed. Had the contracting language been reviewed by a senior IO or PSYOP
official, potential shortfalls could have been identified and addressed earlier in the
contracting process.

JCC-I/A sought a vehicle they could use to consolidate several similar requirements into
a larger and more manageable vehicle to ease contract administration burdens. However,
the IDIQ contract for media services was halted shortly after award, causing MNF-I and
MNC-I to extend some existing contracts. MNF-I and MNC-I officials stated that they
plan to return to using a series of small contract vehicles to satisfy their PSYOP
requirements. As a result, JCC-I/A did not end up with a more manageable vehicle, will
not be able to use this contract vehicle as intended, and will likely continue administering
a series of small contract vehicles for PSYOP.

In addition, an MNF-I PA official stated that after the contract was awarded, the
command decided not to use it to satisfy the strategic communications management
services requirement for PA purposes.



                                             6

Summary
We reviewed contract documentation pertaining to pre-award, source selection, and
contract award, and concluded that JCC-I/A complied with the FAR. Although the
contracts were originally intended to satisfy PSYOP requirements, JCC-I/A incorporated
PA into the solicitation. To ensure that PSYOP and PA could both coexist under one
SOW, the focus of the solicitation was broadened to concentrate on media services,
which created unintended consequences. Specifically, the contract language did not
differentiate between the audiences for PSYOP and PA in accordance with established
doctrine, creating the appearance that PSYOP was associated with a U.S. audience.
Overall, the contracting process resulted in a contract vehicle that was not optimal and
may not meet initial PSYOP requirements or user needs.

Management Comments on the Report and Our
Response
U.S. Central Command Comments
Although not required to comment, the Chief of Staff, U.S. Central Command provided
comments on behalf of U.S. Central Command that incorporated comments from its
subordinate commands (MNF-I, MNC-I, and JCC-I/A). Specifically, U.S. Central
Command’s response included comments from the MNF-I IO Chief, MNC-I Deputy
Chief of IO, and the Principal Assistant Responsible for Contracting-Iraq (on behalf of
JCC-I/A).

The Chief of Staff stated that while the SOW covered the whole spectrum of media
services under the contract, each task order would identify specific requirements. He
added that use of multiple award, IDIQ contracts ensure that proposed procurements are
aligned with requirements and that oversight comes from IO practitioners appointing
Contracting Officer’s Representatives with detailed Quality Assurance Surveillance Plans
to manage the task orders. Such practices expedite the acquisition process and centralize
procurement to avoid duplicity or redundancy. The Chief of Staff stated that the real
issue was the inclusion of “U.S. audiences” in the SOW, since it is illegal to target U.S.
audiences for PSYOP.

Our Response
Although JCC-I/A awarded IDIQ contracts for media services in compliance with FAR
pre-award, source selection, and contract award requirements, the contract language did
not adequately differentiate the intended audiences for PA and PSYOP. Joint doctrine for
PA states that PA can be disseminated to both U.S. and foreign audiences; however, joint
doctrine for PSYOP states that PSYOP can only be disseminated to a foreign audience.
The inclusion of the U.S. as a strategic audience and PSYOP publications as guidance
created the appearance that PSYOP were associated with a U.S. audience. Although the
SOW was intended to be broad to conform to established PSYOP and PA doctrine, we
believe that the contract should not be used beyond the $1 million contract minimum
value because it does not set forth a solid basis for the award and execution of specific
task orders.


                                            7

Office of the Under Secretary of Defense for Intelligence
Comments
Although not required to comment, the Senior Advisor for IO Strategy and Plans, Office
of the Under Secretary of Defense for Intelligence stated that his organization will
endorse and advocate the recommendations in this report within the Department. He
agreed that DoD must improve controls to distinguish between tasks that support
products intended for U.S. audiences and those intended exclusively for foreign
audiences. However, the Senior Advisor stated that there are instances where certain
contracts, like media analysis, could be consolidated under one vehicle as these products
do not intend to inform or influence audiences.

Our Response
We agree with the comments from the Senior Advisor for IO Strategy and Plans, Office
of the Under Secretary of Defense for Intelligence.

Recommendations, Management Comments, and Our
Response
1. We recommend that the Commander, Multi-National Force-Iraq:

       a. Award task orders for Psychological Operations under these contracts to
meet the contract minimum values, then allow the contracts to expire.

Multi-National Force-Iraq Comments
The MNF-I IO Chief agreed with awarding task orders to meet contract minimum values
and recommended that approval to award the task orders be granted no later than
August 15, 2009.

U.S. Central Command Comments
The Chief of Staff, U.S. Central Command agreed with allowing MNF-I to award task
orders under the contract; however, he stated that if task orders can be written on this
contract in any matter, the contract can be used as originally intended. Specifically, he
stated that, provided task orders are written with sensitivity to verbiage, MNF-I can use
the contract as intended. The Chief of Staff noted that the scope of the contract enables
units to draft task orders with more specific requirements that should fulfill user needs.

Our Response
The comments are responsive and no additional comments are required. Regarding the
comments from the Chief of Staff, U.S. Central Command, our recommendation to award
task orders to meet the minimum contract values was not an endorsement of the adequacy
of the contract. Our recommendation is intended to prevent $1 million from being spent
without receiving anything in return. Our report identifies several shortfalls in the
strategy, management, and oversight of the contracts, resulting in contracts that were
awarded without clearly defining intended audiences for PSYOP and PA. Using the


                                             8

contracts to conduct PSYOP beyond the $1 million minimums may create unintended
consequences, such as the perception that PSYOP does not have a clearly defined
audience. In addition, we believe that the contract should not be used as originally
intended to conduct PSYOP because it does not set forth a solid basis for the award and
execution of specific task orders.

       b. Determine how ongoing requirements for Psychological Operations will
be procured in the future.

Multi-National Force-Iraq Comments
The MNF-I IO Chief agreed and provided a detailed response from MNC-I on how
PSYOP requirements will be procured in the future.

Multi-National Corps-Iraq Comments
The MNC-I Deputy Chief of IO agreed and stated that the command will prepare a Joint
Urgent Operational Needs Statement to describe how ongoing PSYOP requirements will
be procured in the future. The Joint Urgent Operational Needs Statement is intended to
request the creation of a program office for acquisition of IO related services and
products, preferably at U.S. Special Operations Command. The program office will
include a program manager whose duties will include analyzing recurring and common
IO requirements, conducting market research to identify vendors, and providing training
to deployed personnel in acquisition planning and contract administration for IO and
PSYOP contracts, among other responsibilities.

U.S. Central Command Comments
The Chief of Staff, U.S. Central Command agreed with the management approach
identified in the MNC-I comments. He noted that MNF-I, in collaboration with
U.S. Central Command, will manage PSYOP activities under Operation Earnest Voice,
an operation to influence regional and international audiences to achieve U.S. Central
Command strategic objectives.

Our Response
The comments are responsive, and no additional comments are required.

2. We recommend that the Commander, Joint Contracting Command-
Iraq/Afghanistan:

      a. Appoint a Contracting Officer’s Representative and prepare a Quality
Assurance Surveillance Plan, if the contracts are used to issue task orders.

Joint Contracting Command-Iraq/Afghanistan Comments
The Principal Assistant Responsible for Contracting-Iraq, on behalf of JCC-I/A, agreed
and stated that if any task orders are issued under these contracts, a Contracting Officer’s
Representative will be assigned and a Quality Assurance Surveillance Plan will be
implemented. He added that, in situations where individual task orders are used to


                                             9

address unique requirements, that appointing the Contracting Officer’s Representative
after the task order is awarded is standard procedure.

U.S. Central Command Comments
The Chief of Staff, U.S. Central Command agreed and stated that if task orders are
awarded under the contract, a Contracting Officer’s Representative must be appointed
and a Quality Assurance Surveillance Plan must be prepared.

Our Response
The comments are responsive, and no additional comments are required.

      b. Implement procedures to ensure a review is conducted of proposed
procurements of Psychological Operations by the Multi-National Force-Iraq
Information Operations Division.

Joint Contracting Command-Iraq/Afghanistan Comments
The Principal Assistant Responsible for Contracting-Iraq, on behalf of JCC-I/A, agreed
with the need for oversight and management of IO contract requirements. However, the
Principal Assistant stated that it would be inappropriate for JCC-I/A to perform this
function and that the review of proposed PSYOP procurements should be performed by
personnel within the requiring activity.

U.S. Central Command Comments
The Chief of Staff, U.S. Central Command agreed and stated that this function should be
performed within the requiring activity, such as MNF-I.

Our Response
The comments are responsive, and no additional comments are required. We agree with
the Principal Assistant Responsible for Contracting-Iraq that it would be inappropriate for
JCC-I/A to provide the oversight and management of IO contract requirements. JCC-I/A
should implement procedures to provide contract documentation, such as statements of
work, to the MNF-I IO Division for review prior to the release of the solicitation. This
review will allow MNF-I to assess whether the proposed contracting language adequately
describes the PSYOP requirement(s) to be satisfied by the procurement.




                                            10 

Appendix A. Scope and Methodology
We conducted this performance audit from December 2008 to May 2009 in accordance
with generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

We visited, contacted, or conducted interviews with current or former officials from the
following organizations:
        U.S. Central Command; Multi-National Force-Iraq, Joint Contracting
           Command-Iraq/Afghanistan; Multi-National Corps-Iraq;
        Under Secretary of Defense for Intelligence;
        Joint Staff;
        Leonie Industries LLC;
        SOS International, Ltd.;
        L-3 Services, Inc. (MPRI)1; and
        Lincoln Group.

We reviewed the FAR and Defense Federal Acquisition Regulation Supplement to
identify guidance related to contract award and administration.

We reviewed Joint Publication 3-13 to determine joint doctrine for IO. We reviewed
Joint Publication 3-53 to determine joint doctrine for PSYOP. We reviewed Joint
Publication 3-61 to determine joint doctrine for PA.

We reviewed contract documentation for contracts W91GDW-08-D-4013,
W91GDW-08-D-4014, W91GDW-08-D-4015, and W91GDW-08-D-4016 awarded by
JCC-I/A. Specifically, we reviewed pre-award and acquisition planning documentation
pertaining to the validation of the user need/requirement, the acquisition strategy, and
three iterations of the solicitation as amended. We reviewed source selection materials to
determine the source selection process and the basis for contract award. We reviewed
post-award documentation including the four contracts signed on September 23, 2008,
and contract modifications.

Use of Computer-Processed Data
We did not use computer-processed data to perform this audit.




1
    MPRI is part of L-3 Services, Inc. and would be performing the work for the contract.


                                                      11 

Prior Coverage
During the last 5 years, the DoD Inspector General (IG) and Air Force Audit Agency
have issued five reports discussing IO or PSYOP. Unrestricted DoD IG reports can be
accessed at http://www.dodig.mil/audit/reports.

DoD IG
DoD IG Report No. D-2009-090, “Information Operations Career Force Management,”
July 2, 2009.

DoD IG Report No. 07-INTEL-06, “DoD Involvement with The Rendon Group,”
March 6, 2007. This report is not publicly available.

DoD IG Report No. D-2007-001, “Information Operations Activities in Southwest Asia,”
October 6, 2006. This report is not publicly available.

DoD IG Report No. D-2006-083, “Information Operations in U.S. European Command,”
May 12, 2006. This report is not publicly available.

Air Force
F2005-0003-FD3000, “Information Operations Personnel Data Verification,” April 1,
2005.




                                         12 

Appendix B. Media Services Contracts
in Iraq
JCC-I/A awarded four IDIQ contracts for media services on September 23, 2008. We
reviewed contract documentation pertaining to pre-award, source selection, and contract
award, and concluded that the contracting process complied with the FAR.

Pre-Award
On July 4, 2008, the MNC-I Chief of Staff approved a purchase request that obligated
$1,250,000 ($250,000 for each awardee) to fund the minimum contract amounts on these
IDIQ contracts. The former contracting officer stated that he deobligated $250,000 from
the obligated funds since only four firms were awarded contracts, leaving $1 million
obligated.

On July 25, 2008, the Acting Commander, JCC-I/A approved the Acquisition Strategy
for this procurement (solicitation number W91GDW-08-R-0006). The Acquisition
Strategy stated that PSYOP/IO is a recurring requirement, that was previously satisfied
through multiple blanket purchase agreements and multiple-award IDIQ contracts, most
of which expire in 2009. The strategy for this procurement was to use a combined
contract vehicle for PSYOP and IO that would operate under one oversight team to
decrease contract administration efforts. The solicitation would be openly bid as a fixed-
price, multiple-award, IDIQ contract with a maximum value of $300 million.

Solicitation
JCC-I/A prepared and issued the solicitation in accordance with FAR 12.204,
“Solicitation/contract form”; 12.301, “Solicitation provisions and contract clauses for the
acquisition of commercial items”; 15.203, “Requests for proposals”; and 15.204-2,
“Part I-The Schedule.” The solicitation was for an IDIQ contract to provide PSYOP and
IO services to MNF-I. Firm-fixed-price task orders would be used to execute the
requirements described in the SOW. These services would have the core objective of
engaging and inspiring target audiences.

Three versions of the solicitation were posted on the Federal Business Opportunities Web
site. Each version of the solicitation included a seed project (sample task order) to allow
the Government to conduct a detailed price evaluation and comparison of proposals. The
seed project would also be used to evaluate the technical capability among offerors.

On July 22, 2008, the contracting officer issued the first solicitation with a SOW titled
“Psychological Operations/Information Operations Services,” with a seed project titled
“Strategic Communication Management Services.”




                                            13


An MNF-I official stated that the SOW from a separate contract for strategic
communications management services2 was provided to JCC-I/A as the seed project for
evaluating contractor proposals for this PSYOP/IO procurement. An MNF-I official
stated that the strategic communications management services contract was exclusively
for PA. Examples of tasks in the seed project include media monitoring, assessment, and
reporting; media training for spokespersons and subject matter experts; and Web site
development and management.

On July 28, 2008, the contracting officer reissued the solicitation to incorporate changes
in response to technical and performance questions posed by offerors. The second
version of the seed project expanded the SOW to include four additional tasks; however,
none of these tasks were related to PSYOP.

On August 21, 2008, the contracting officer issued the third and final version of the
solicitation. This version incorporated additional changes in response to offerors’
questions and changed the name of the services from “Psychological/Information
Operations” to “media services.” This version also changed the name of the seed project
from “Strategic Communication Management Services,” to “Media and Advertizing
Management Services.”

Source Selection
JCC-I/A properly executed the source selection for solicitation W91GDW-08-R-0006. A
JCC-I/A official assisted in the establishment of the Source Selection Evaluation
Board (SSEB), which consisted of personnel from MNF-I, MNC-I, the PSYOP Task
Force, and JCC-I/A. According to a former MNC-I official, the SSEB included
individuals with backgrounds in IO, PSYOP, contracting, or PA. The SSEB began its
evaluations at JCC-I/A offices on August 26, 2008.

In accordance with FAR Subparts 15.304, “Evaluation Factors and Significant
Subfactors,” and 15.305, “Proposal Evaluation,” the SSEB evaluated the proposals and
assessed each proposal solely on the five evaluation factors (Technical Capability, Past
Performance, Specialized Past Experience, Iraqi Socio-Economic Program Support, and
Price) identified in the solicitation. In accordance with FAR 15.304, the solicitation
stated that the evaluation factors of Past Performance, Specialized Past Experience, and
Iraqi Socio-Economic Program Support, when combined, were equal and slightly more
important than price. The contracting officer documented the strengths, deficiencies,
significant weaknesses, and risks supporting the proposal evaluations in the Source
Selection Decision Document included in the contract file documentation.

JCC-I/A received nine proposals in response to solicitation W91GDW-08-R-0006;
however, one contractor submitted a late proposal and was removed from the
competition. The SSEB conducted a comprehensive evaluation of the remaining eight
proposals and determined that two proposals were technically unacceptable. Following

2
 An existing contract for Strategic Communications Management Services was awarded by JCC-I/A to the
Lincoln Group on September 23, 2006.


                                                14

the SSEB’s decision, the contracting officer notified the two contractors in writing of
their exclusion from the competitive range, in accordance with FAR Subpart 15.503,
“Notifications to Unsuccessful Offerors.” The SSEB determined that the remaining six
proposals were technically acceptable and evaluated the proposals further on the factors
of Past Performance, Specialized Past Experience, Iraqi Socio-Economic Program
Support, and Price. The SSEB report stated that the competitive procurement established
the basis for price reasonableness. In accordance with FAR 15.305(a)(1), the Source
Selection Decision Document documented the results of a comprehensive price analysis
performed on September 15, 2008.

The Government entered into discussions with the six contractors in the competitive
range on September 11, 2008. Subsequently, the contracting officer sent out Items For
Negotiation, and on September 13, 2008, the contracting officer requested final proposal
revisions from the six contractors. The SSEB removed two contractors from the
competition after both contractors were unable to secure an active Secret Facilities
Clearance (one contractor also had excessive pricing). In accordance with FAR
Subpart 15.303, “Responsibilities,” the contracting officer notified the two contractors, in
writing, of their exclusion from award, within three days of contract award. The SSEB
recommended award to four contractors. The Source Selection Authority agreed with the
SSEB’s recommendations and made the decision to award contracts to Leonie Industries
LLC; SOS International, Ltd.; Lincoln Group; and L-3 Services, Inc. (MPRI). The
Source Selection Authority’s rationale and decision for the source selection for
solicitation W91GDW-08-R-0006 was documented in the Source Selection Decision
Document in accordance with FAR Subpart 15.308, “Source Selection Decision.”

Contract Award
On September 23, 2008, JCC-I/A awarded four IDIQ contracts to Leonie Industries LLC
(W91GDW-08-D-4013); SOS International, Ltd. (W91GDW-08-D-4014); Lincoln Group
(W91GDW-08-D-4015); and L-3 Services, Inc. (MPRI) (W91GDW-08-D-4016) to
provide a full range of media services to MNF-I. The four contracts were awarded in
accordance with FAR Subparts 12.203; 12.204; 15.504, “Award to Successful Offerors”;
15.204, “Contract Format”; 15.204-1, “Uniform Contract Format”; and 16.504,
“Indefinite-Quantity Contracts.”

The four IDIQ contracts with fixed-price task orders had a period of performance of
12 months from the date of award, with two 12-month option periods. Each contract has
a guaranteed minimum value of $250,000 and a maximum value of $300,000,000. Each
task order has a minimum value of $125,000 and a maximum value of $100,000,000.
The maximum amount of $300,000,000 represents the combined totals of base and option
years for the four awarded IDIQ contracts.

Post-Award
The contracts were modified twice shortly after award. The first modification, dated
September 28, 2008, corrected the fund cite on the contracts. The second modification,




                                            15


dated October 4, 2008, changed the contract language. The SOW in the original
contracts stated:

       … it is essential to the success of the new Iraqi Government and the Coalition
       mission that both communicate effectively with our strategic audiences (i.e.,
       Iraqi, pan-Arabic, international, and U.S. audiences) to gain widespread
       acceptance of their core themes and messages.

The second modification changed the SOW by eliminating U.S. audiences.

The media services contracts have been on hold since October 2008, and the former
contracting officer also stated that there were no task orders awarded for the contracts.




                                              16


U.S. Central Command Comments
 





                              UNITED STATES
                                     ST A TES CENTRAL COCOMMAND
                                                           h1MAND
                                  OFFICEOrTI-IE
                                  OFFICE OF THE CHIEF OF STAFF
                                    7115 SOtJTH
                                         SOUTH HOUNDARY
                                                BOUNDARY BOULEVARD
                              l\.IACDlLLAIR FORCE RASE
                              l\.iACDILLAlR        BA5;'E... FIDRIDA
                                                             FLORIDA 3"\621-51nl
                                                                     J'\621-5101

                                                                                   19 June 2009

      FOR: DEPARTMENT OF DEFENSE INSPECTOR GENERAL (DODIG)

      SUBJECT: Review of Draft DODIG Report "Information Operations Contracts in Iraq"
      SUBJECT:
                       OOOOJ A-O108 .000)
               (D2009-DOOOJ
               (02009-

         Thank you for the opportunity to respond to the recommendations presented in the
      1. Thank
      DODIG draft report.

      2. USCENTCOM concurs with
      2.                   Witll the recommendations in this draft report and comments
      are attached.

      3. The Point of Contact is
      3.



                                              .~  .~
                                          ~I
                                            a
                                            J
                                               t-.·~
                                               W.HOOD
                                               W. HOOD
                                            ~~orGeneral,
                                   Click to add JPEG file
                                             ajor General, U.S. Army

      Enclosures
      USCENTCOM Response
      MNF-J and JCC- IJA Responses
                JCC-J/A  Respoll5es




                                                                   17
                       DODI G DRAFT REPORT - DATED May 19
                       DODIG                                       19,, 2009
                            Project      D2009- D0001A-0108.000
                            Pr oject No. D2009-     DOOOlA-OI08.000
                        "Information    Operations
                        " Jnform at ion Op                           Iraq "
                                           er at io n s Contracts in Iraq"

                                    USCENTCOM COM
                                              COMMENTS
                                                  MENTS
                                    TO THE DRAFT REPORT


RECO MM ENDATION l.a. (page 7.
RECOMMENDATION                    7 . DO DIG Draft)
                                              Dra tt)
DOD1G
DODIG recomm
        recommends
               ends that the Commander, 1  MLlti-National
                                           'v1L1ti-Nationa l Force-Iraq (MNF-I) award task
orders under these contracts t o meet the contract minimum values.
                                                                values, then allow the contracts
                                                                                       cont racts
to expire.

USCENTCOM
USCENTCO    M RESPONSE
               RESPONSE:: US CENTCOM concu
                                         concurs
                                               rs with allowing MNF-I to award task
                                                                                 tas k orders
      the
under th e contract. However, if
                              if DODIG determines
                                       determ ines that task orders can be w ritten on tthis
                                                                                         his
contract in any manner, then it    it stands to reason that the contract can move forward as
            int ended . If the ~~materiaf
originally Intended.             materiaf internal control weakness in tthe  he oversight"
                                                                                oversight " of the
contract stems from langu      age that does
                         language         do es "not clearl y distinguish
                                                              disting uish between PA and PSYOP", it
has no bea    rin g on the task orders that would be written
        bearing                                         w ritten agaInst
                                                                   against the contract. Provided task
orders are written
              wri tten with sensitivity to verbiage,
                                           verbi age, USCENTCOM sees no reason why MNF-I     MNF­ I
can not ut ilize the contract inn its intended capacity. Moreover, USCENTCOM believes that
the scope of the effort would satisfy PSYOP requirements and user needs. The scope of the
contract enables units to draft ta sk orders with more speCificspecific requirements that, when
                                                                                             whe n
managed by an appointed Contracting Officer's Representative ( COR) w            with
                                                                                  ith a comprehensive
Quality Assurance Surveillance Plan (QASP), should fulfill the user needs.

RECO MM ENOAnON 1.b.
RECOMMENDAnON
                              Click to add JPEG file
                      l .b. (page 7 . DO DIG Draft
                                      DODIG   Dr-aft))
DODIG
DO DIG recommends t hat the Commander, Multi-Nat
                                           Multi -National
                                                       ional ForCE­
                                                             Force- I raq determine
                                                                          deter mine how ongoing
reqUirements for Psychological Operations will be procured in the future .

USCENTCOM
USCENTCO    M RESPONSE
               RESPO NSE : USCENTCOM
                             USCE NTCOM concurs with the need to determine reqUirement
                                                                                reqUire mentss
and acquisition procedures for PSYOP activities, and concurs with using the program
management approach identified In in MNC-I's memo . MNF-I
                                                      MNF-I,, in collaboration with
USCENTCOM 10, will manage this program under OPERATION Earnest Voice (OEV). The
mission of OEV is to inform, persuade, and influence intern
                                                      international
                                                            ational and regional audience
perceptions, attitudes, and actions to
                                    t o ach
                                        achieve
                                            ieve USUSCENTcor-1 strategic objectives .


                     that the Commander, i                    Command·
                                                              Command-Iraq/Afghanistan
                                                                         Iraq/Afghanistan
(JCC I/A) appoint a COR and prepa
                              prepare
                                   re a QASP, if the contracts are used to issue task orders .

USCENTCOM
USCENTCO   M RESPONSE
               RESPO NSE : USCENTCOM
                             USCE NTCOM concu concurs
                                                    rs with the recom
                                                                 recommendation
                                                                          men datio n having a COR
                                                                                               CO R
                 Si nce JCC I/A
prepare a QASP. Since        J/A has not issued any task orders on th is contract to date,
there has not been a need to apPOint
                              appoint a COR or prepare a QASP. Should MNF-I      MNF~I issue tas
                                                                                              task
                                                                                                 k
orders under current contract
                     co ntract ttoo cove
                                    coverr the mini
                                               min imu
                                                    mumm values,
                                                          valu es, tthhey
                                                                       ey must
                                                                          m ust appoint
                                                                                appOi nt a COR an d
prepare a QASP.

RECOMMENDAT(ON
RECO                   . b . (page 7.
       MME NDATIO N 2 .b.          7 . DODIG Draft)
DODIG
DOD  I G recommends that the Comman
                               Commanddeer,
                                          r, Joint Contract ing Command·Iraq/Afghan
                                                                Command-Iraq/Afghan ist
                                                                                    istan
                                                                                        an
Impl
im plement
     ement procedures to ensure
                          ensu re a review is conducted of proposed procurements of
Psychological Operations by the MNF·I
                                 MNF· I Information Operations Cell.
                                                                 Cel!.




                                                                18
U SCE N TCO M RESPO N SE: USCENTOM       con curs w ith the need for implementation of
procedures for centralized oversight and management of Infurmation Operation contra ct
re quirements. However, U5CENTCOM be lievers this function should be performed b y
appropriate personnel wi t hin th e requiring activity, specifica lly I"1NF-I.

                          GENERAL CO MMENTS O N THE REPO RT

1. (U) Page i. USCENTCOM concu rs with JCC IIA's commen t on contract language
   differentiat ing P$YOP and PA. While the Statement of Work identifieS th e whole
   spectru m of media services under an ID/IQ contract, each task order identifies specific
   requirements. USCENT COM believes the rea! issue stems from t he inclusion of " U.S.
   a udiences" ill the SOW, since It Is Illegal to target U.S. audiences for PSYOP.

2. (U) Page i . USCE NTCOM believes that multiple award, ID/IQ contracts giv e both
   con tracti ng officials and end users the best procedu re to ensure proposed procu rements
   are aligned wit h reqllirements . The oversight comes from IO practi tioners managing
   requirements and appointing CORs with detailed QASPs to m anage each task order.
   Provided the ve rbia ge is such that it stands up to legal rigor, such contracts exped ite the
   acquisition pr ocess for the war fighter and centra lize procurement to avoid dupliCity or
   redundancy .




                             Click to add JPEG file




                                                                                                2




                                                             19
Multi-National Force-Iraq Comments






                           DODIG DRAFT REPORT - DATED May 19, 2009
                               Project No. D2009-DOOOJA-Ol08.000
                            "Information Operations Contracts in Iraq"

                                          MNF- I COMMENTS
                                        TO THE DRAFT REPORT

       RECOMMENDATION 1.a. (page 7 . DO DIG Draft)
       DODIG recommends that the Commander, Multi-Nation al Force- Iraq award task orders
       under these contracts to meet the contract minimum values, then a llow the contract s to
       expire .

       MNF-I RESPONSE: MNF-J concurs with awardi ng of task orders to meet contract minimum
       va lues. Due to conrracting timelines, recommend approval be granted to award NLT 15
       August 09.


       RECOMMENDATION 1.b. (page 7. DOPIG Draft)
       DODIG recommends that the Commander, Multi -National Force-I raq determine how ongoing
       requirements for Psychological Operations will be procured in the future.

       MNF-I RESPONSE: t-1NF-J concurs with Information provided in this report .    Please see
       attached response.

                               GENERAL COMMENTS ON THE REPORT




                                                                 20
                                           HEADQUARTERS
                                        .U'_Tl.fUoTlONAlCORPS I!tII!Q
                                                5JUi.lt0AD,lRAQ
                                                 4P'O A.E ot3oI2




F!C!-IO                                                                                 27 May 2OC9

M "JAORA.'<OUM FOR O~paJtmern of Defense Inspector Oe n~reJ.            The ?e::tegon, Wa:>hlny!.on.
DC 20301

SUBJECT: Mutti-Naticnal Corps-Iraq Response 10 OOOIG Draft Report Project Dated 19 May
2009, Number D2009-JCOOJA-otC8.000, Ir.1oonatlon Operations Contracts m Iraq

1. The Departmenl of ~ense Inspector GeMr.lllllCOmmendation 1.b. stated 'Oo:::llG
recorrmends that the Commander, Mu.ti-Nationa] Force-iraq determine nON ongoi~
requirements for Psychofcgfcal Opera'.bns wil be procured in the M-Jf'e.'

2 . Mf<C_1 R!!oonH: MNC_! eoncum with the information provided in tt>~s report. MNC-!"';'II
delerrrune how OflSjoing re<;turemenls f¥ Psychological Oper2tions (PSYOP) 'IVIll be pmc:tJnM:l in
lhe future by preparing a Joint Urgent Operational Needs Statement (JUONS) lAW CJCSI
3410.01 JUQNS. The JUONS ill irnendedto request the O'eafu)n of a program office for
ao;;;.Jiwon of lnlormatiOl1 operat~ "':.toed 5erVi'= and products, ~era!lJy at USSOCOM.
The P~ram c1Iice will indu<ie a program m=ger wnose dv!iC':! WIll incllJde:

-Analyze rec:;mng and similar requi~el"l!s for infonnatioll oper.rtio:1S products and
psychological in:ormation.

                         Click to add JPEG file
-Conduct marXet ~rch to iderrtify pctential U S and foreign veodors 10 indude companie=l
wn:d"I geographic specialization and maricet presence.
-The ProQram Manager wJi prepa.-e an ao::;u~ition plan to nchx:!e centrad line item ntr.':'lbe:"
(CLIN) IltId a performance work sta:emcnt (P'NS) thilt expand:$ off cI the CLlN ~ne items and
sl-.ows lTIfIasu~ablt! outcomes a'ld Includes aource wJ.ction t.c10.... which _nabla pJeetion 01
the vendor w.th the !:lest e)(plill"latiO(', of HOW they ir.".end 10 perform the ~ caned for in the
won< statement such that ~to cost, s:heduie and perlormance are mitigate(j.
- The Progra'JI Manager vdl prepare, execute and aS$i$t w:th execution of ac;:qu;s;lioo whj~
that are deployable to field units in ~ template form~ ",,"iel- is opbmi:z~ for 10 and the five
associated piJars..Cperat;oos Se;:o.;r.ty, Milbry Deception, ?$ychoiogicai Operations, =~~c:
Warfare and Comp!.w Netvllor1c Operations,

- The Program Uangcr WIll tnll'l8fer ri~ of non-petfOt'TTlaJ1Ge to the contractors to the maximum
~xtent POSSit:te. The Pr~m Man.:ager will idel'ltify ~ of Information O~';lr:s ancl
Psyc:ho1ogical Operations in particular which are capable of beil"lQ e:r.ecuted by a tOntra::!or in
View of specific measurable standard'S sud! that the contractor is respor:sib!e fof a faIlure to
meet ~1Eid measures of performance and measures of e1'fectiVel'les5.




                                                                        21
FIC1./O
SUBJECT: Multi-National Corps-lraq Res;lOn5e to D001G D:7.t Report Pmjed D.l:te:! 19 May
2009, Number D:2009-D000JA..o1Ca.OCO, Infoma!ion Operations C:lntracts in Ir.q


-The P:-ogram Managerw-J] ma:ntain a c!a~base of availab!e vendors around the wor:d to
indude local :;;nd translational Yer.dors....no are CliIpable ct. deploying appropriate personr.el rna
a lhea!er of operatior.s v.fth ~c skl.~s.

- The prOljra..r manager will provide a I:a..'son offICer (LNO) \lith forvr.m::I deployed rncmlation
oper.tlons planning and ex~tion eells, partirulaJ1y PSYOP units, to assess aJl"""ent
tool$!acquisition whideslvendor base. LNO$ will be clepoyet;! from ~er to COQS to division
level as well as wlth Soecial For:::es ~ v.here there are no conventic naJ fprces at d"Nision
_ l
- The proga.-n office's key capab;:;t~ i3 to provide beth hisih (.eve!s 01 !eo;;hnical exp2rtise In f~J
spedn,Jm 10. PSYOP in partlCl.llar, along vi.th highly experiem:ed omgram manage!5 and
acquisition ca~ities to indl.lde ability to issue contracts for infOl'mBtlon operatiollS wpport
and 011.0 ildvifie dOJoIoyed units In acqtf.sitkln plannm, and contracting with deployed contracting
commiOOOs_ Acquis-ition plans aM won: mmrncmta v.lfI be ttl =mpliancc: with pertormanee
based service ao::;uisition rules and doctrir.e to the maximum extent poMlbie .

.'The program offiee will po$3eM the capability to assess ~ect!Yeness cf Information oper;ltlons
adMl:ies that are being cootraded out:llM ~cMdt! immedi;r. . g uidal"lC8 on cor"'OC5Ye action
                          Click to add JPEG file
where needed to maude col"t.ra:;t adrninis+JT.ion support. The pj"ogrilm offi;e will also be abIe!o
Pl"QVid8 cost estlmation capabilities for mlmation operortons capabilities .

•"The ~riI office win be responsiOie for training prcgrams for Just in ti.:ne tnlinmg of deployed
~rsonnel in acquisition planning and contract admlnistration fOr information operations and in
parlicuIar, PSYOP eon::racts

-The program office w:ll create a library ofbtmpiate acqu~ition plans for t9cumng nformation
operations requirements as    we"as .I field unit contir:gency contracting handbooic 101" i~
operations .imilarm me cne issued by USSOCON Directorate cI Pn:x:.uremenl CcolirstmCY
Cootracting Element, MacOili A..'r Force Base (USSOCC»JJSOAl-KA). This handboolc: wi N
include telephone number5 that provide a heI';:line for information operations acquisjions
:SSLIe$




3. Po"", afwrnad    ',,In" '''on'''. W>d"'?~Lfc1'acr/­
                                                    Colonel, USA
                                                    Deputy Chief of Information Operatiom;




                                                                                                          3




                                                                       22
Click to add JPEG file




                         4




               23
Joint Contracting Command-Iraq/Afghanistan Comments






                               DODIG DRAFT REPORT - DATED May 19, 2009
                                   Project No. D2009-DOOOJA-Ol08.000
                                "Information Operations Contracts in Iraq "

                                              lCC 1/ A CO MM ENTS
                                             TO THE DRAFT REPORT

      RECO MM ENDATION 2 . a . (page 7. OOOIG Draft)
      DODIG recommends that the Commander, Joint Contra cting Com mand- Ira q/Afghanistan appoint
      a Contracting Officer's Representative and prepare 3 Quality Assurance Surveillance Plan, iF the
      contracts are used to issue task orders.

      lee ItA RESPONSE : Jee I/A concurs wilh this recommendation and if any task orders are
      issued under t hese cont racts a COR wil l be assigned elnd eI QASP impl emented. It was the
      command's intent all along to appoint a COR and <l QASP for ind ividual task orders as each is a
      uni que requ irement. This is the sta nd ard procedure for ID/IQ contracts with differing customers
      and reqUi rements.

      RECOMME NDATIO N 2.b. (page 7 . DO DIG Draf t)
      DO DIG recommends that the Commander, Joint Contracting Command - I raq/Afghan ist an
      implement proced ures to ensure a rev iew is con ducted of proposed procurements of
      Psychological operations by the Multi-Nationa l Force-Iraq Information Operatio ns Cell.

      l e c VA RESPONSE: JCC IIA concur s with the need for implementation of procedures for
      centra lized oversight lind mllnagement of Information Operation contract requirements.
                                      Click to add JPEG file
      However, it would be inappropriate for JCC-I/A to perform this function in that it would result in
      JCC-I/ A poliCing, as well as defining contract requirements for MNF-I. This function should be
      performed by appropriate perso nnel within the requiring activity.

                                    GEN ERAL COMMENTS ON THE REPORT

      1.   (U) Page i. The summarl of the report says t hat " The contract language did not dea rl y
           differentiate between Psycholog ica l Operations and Public Affairs." It should be understood
           that t he Statement of Work covered the whole spectrum of media servi ces under an ID/lQ
           arrangement, no work would be ordered for t he entire statement of work against the basic
           contract. Rather, individual task o rd ers would be placed for specific requirements, ( Le. pub lic
           affairs or psychological operations ), but n ot both together. Task o rders are considered stand
           alone contracts and there never was an intent t o include public affa irs and psychological
           operations un der one task orde r.

      2 . (U ) Page i. T he summary of the report also says " materia! interna l control weakness exists
          in the ove rsight of the contract...because JCC· I /A did not appoint a COR or prepare a QAS P."
          JCC-I/ A does not agree with th at assessment because no task orders we re ever issued unde r
          this contra ct. If a task order were to be issued a COR would be aSSigned and a QASP
          developed and implemented . As noted in recommendation 2a, It was the command's Intent
          all along to <lppoi nt a COR and a QAS P for individul!Il task orders as each is a unique
          requ irement . This Is the standard procedure for ID/IQ contra cts with differing customers OJ nd
          requirements.

      APP ROVED BY :                                               PREPARED BY:




                                                                      24
Office of the Under Secretary of Defense for Intelligence






                    OFFICE OF THE UNDER SECRETARY OF DEFENSE
                                    !5000 DEFENSE PENTAGON
                                   WASHINGTON, DC 20301·!5(X)Q




                                                                               June 2, 2009

         MEMORANDUM FOR DIRECTOR, JOINT AND OVERSEAS OPERATIONS

         SUBJECT: OUSD(I) Comments on Project No. D2009-DOOOJA-010S.000

                 This memorandum responds to your request to provide comments on the
         draft report aryour audit of the I"fonnation Operations Contracts in Iraq. I have
         read your draft, and concur with all of your findings. The action OSO will take to
         accomplish the DoD IG team's recommendations is to endorse and advocate them
         withi n the Department.

                Regarding the material internal control weakness discussed in the report, I
         agree that we must improve material contract controls to distinguish between tasks
         that support products intended for United States audiences and those intended
                                Click to add JPEG file
         exclusively for foreign audiences. There arc instances, however, where select
         contracts can be consolidated, e.g., media analysis. These types of contracts are
         best optimized under one vehicle, as these products do not intended to inform or
         influence outside audiences.




                                          ~;L[l----
                                           F. Austin Branch
                                                  Senior Advisor for 10 Strategy & Plans
                                                   Infonnation Operations & Strategic Studies




                                                            25
